No. 20-107

In the Supreme Court of the United States
CEDAR POINT NURSERY
and FOWLER PACKING COMPANY, INC.,

Petitioners,
v.
VICTORIA HASSID, in her official capacity as Chair of the Agricultural Labor
Relations Board; et al.,
Respondents.
On Petition for Writ of Certiorari
to the United States Court of Appeals for the Ninth Circuit
CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5, I certify that on September 2, 2020 I
caused the BRIEF OF AMICUS CURIAE SOUTHEASTERN LEGAL
FOUNDATION IN SUPPORT OF PETITIONERS in the above-captioned case to be
served upon the following by depositing the document with the United States Postal
Service, with no less than first-class postage prepaid, for delivery within 3 calendar
days, addressed to counsel of record at the proper address.
Wencong Fa
Pacific Legal Foundation
930 G Street
Sacramento, CA 95814
wfa@pacificlegal.org
Counsel for Petitioners

__________________________________
Robert H. Thomas
Damon Key Leong Kupchak Hastert
1003 Bishop Street, 16th Floor
Honolulu, Hawaii 96813
(808) 531-8031
rht@hawaiilawyer.com
Counsel of Record for Amicus Curiae
Southeastern Legal Foundation

Joshua Patashnik
California Department of Justice
455 Golden Gate Ave., Suite 11000
San Francisco, CA 94102
josh.patashnik@doj.ca.gov
Counsel for Respondents

